A-1
APPENDIX A
United States Court of Appeals
For the Eighth Circuit
-----------------------------------------------------------------------

No. 18-1597
-----------------------------------------------------------------------

Mary R. MEIER
Plaintiff - Appellant
v.
St. Louis, Missouri, City Of; Doc’s Towing, Inc.
Defendants - Appellees
St. Louis Board of Police Commissioners; Richard H.
Gray, Member, St. Louis Board of Police Commissioners,
in his official capacity; Thomas Irwin, Member, St.
Louis Board of Police Commissioners, in his official
capacity; Erwin Switzer, Member, St. Louis Board of
Police Commissioners, in his official capacity; Bettye
Battle-Turner, Member, St. Louis Board of Police
Commissioners, in her official capacity; Francis G.
Slay, in his official capacity as a member ex officio of
the St. Louis City Board of Police Commissioners;
St. Louis P.O. House, DSN 219
Defendants
-----------------------------------------------------------------------

Appeal from United States District Court
for the Eastern District of Missouri – St. Louis
-----------------------------------------------------------------------

A-2
Submitted: April 15, 2019
Filed: August 19, 2019
-----------------------------------------------------------------------

Before SMITH, Chief Judge, ARNOLD and KELLY,
Circuit Judges.
-----------------------------------------------------------------------

KELLY, Circuit Judge.
Mary Meier sued the City of St. Louis and Doc’s
Towing, Inc., claiming that both defendants violated
her rights under the Fourth and Fourteenth Amendments when her car was towed and stored without her
consent or a warrant. The district court granted summary judgment in the defendants’ favor, concluding
that neither defendant was a party who could be held
liable for any alleged constitutional violation under 42
U.S.C. § 1983. Because we conclude that Meier has adduced evidence sufficient to establish both defendants’
liability, we reverse and remand for further proceedings.
I
In December 2015, St. Louis Metropolitan Police
Department (SLMPD) Officer Ashley Kelly responded
to a hit-and-run accident. Based on information received from the victim, she suspected that the vehicle
that left the scene was a Ford F-150 truck registered
to Meier. So she asked a SLMPD clerk to report the
truck as “wanted” for an ordinance violation on the Regional Justice Information Service (REJIS) network.

A-3
REJIS is a computer network established by a cooperative agreement between the City of St. Louis and St.
Louis County. It allows law enforcement agencies
within the county to share information with each
other.
On the early morning of March 17, 2016, Maryland
Heights Police Department (MHPD) Officer Cliff
House saw Ben Meier (Mary Meier’s son) and a companion sitting in a truck in a hotel parking lot. House
looked up the truck’s license plate number on REJIS
and saw that it was wanted by SLMPD. He approached
the truck’s occupants and eventually arrested them for
reasons unconnected to the wanted report. He directed
dispatch to arrange for the truck to be towed because
of the wanted report, among other things. MHPD dispatch arranged for Doc’s Towing to pick up the truck.
When a driver from Doc’s Towing arrived, House indicated that the truck was wanted by the City of St.
Louis. The driver wrote “Maryland Heights Police Department,” “Hold,” and the date on the truck’s back
window and then towed it to Doc’s Towing, where it
was stored.
MHPD dispatch sent SLMPD a message through
REJIS: “We have located this vehicle and we are towing it to Doc’s Towing due to an arrest.” SLMPD responded, “Please notify our First District Detective
Bureau in the morning with arrest information.” In the
morning, SLMPD followed up with another message to
MHPD: “Advise driver/owner of vehicle to respond to
the First District Detective Bureau regarding release

A-4
of vehicle.” MHPD mailed Meier a notice that the truck
had been towed to Doc’s Towing.
On March 18, Meier and her son went to Doc’s
Towing to get the truck back. An employee told them
that MHPD had “released” the truck but that SLMPD
still had a “hold” on the truck, and therefore it could
not be released. Later that month, Ben Meier contacted SLMPD Detective John Russo to figure out how
to remove the wanted hold on the truck. Russo explained that Ben would have to answer SLMPD’s
“questions relative to the accident.”
Eventually, Meier hired a lawyer, Jeff Rath, to help
her get the truck back. After numerous phone calls,
Rath obtained a boilerplate “release order” form from
SLMPD that “rescinded” the March 17 “hold order” on
the truck. Rath faxed the release order to Doc’s Towing
on April 29. Doc’s Towing then allowed Meier to retrieve the truck after paying a tow fee and a separate
storage fee based on the number of days in storage. Unfortunately, the truck had been damaged during its
time in storage, and an employee who mistakenly believed that the truck had been abandoned by its owner
had already applied for salvage title. Doc’s Towing attempted to remedy this error, but at the time briefing
was completed on this appeal, Meier still had not obtained clean title for the truck.
II
Meier sued various defendants under 42 U.S.C.
§ 1983, a statute that establishes a cause of action

A-5
against a person who, under color of law, causes a violation of the plaintiff ’s constitutional rights. The district court granted summary judgment in favor of St.
Louis and Doc’s Towing, concluding that these two defendants could not be held liable under § 1983 because
Meier had not adduced evidence establishing that either defendant acted pursuant to an official policy or
that Doc’s Towing had acted under color of law. “We review the grant of a summary judgment motion de novo
and examine the record in the light most favorable to
the nonmoving party.” Smith v. Insley’s Inc., 499 F.3d
875, 879 (8th Cir. 2007). “Summary judgment is only
appropriate if the evidence viewed in this manner
demonstrates that there is no genuine issue of material fact and the moving party is entitled to judgment
as a matter of law.” Id. We address each appellee’s liability in turn.
A
Municipalities like St. Louis may be held liable
under § 1983 only if the alleged constitutional violation was caused by an “action pursuant to official municipal policy of some nature.” Szabla v. City of
Brooklyn Park, 486 F.3d 385, 389 (8th Cir. 2007) (en
banc) (quoting Monell v. Dep’t of Soc. Servs., 436 U.S.
658, 691 (1978)). Meier claims that SLMPD has a policy, albeit an unwritten one, of reporting vehicles as
wanted on REJIS in hopes of detaining the vehicle
against the owner’s wishes and without a warrant.
To establish the existence of such an “unwritten or
unofficial policy,” Meier must demonstrate “(1) the

A-6
existence of a continuing, widespread, persistent pattern of unconstitutional misconduct by the [municipality’s] employees; (2) deliberate indifference to or tacit
authorization of such conduct by the [municipality’s]
policymaking officials after notice to the officials of
that misconduct; and (3) that [she] was injured by acts
pursuant to the [municipality’s] custom, i.e., that the
custom was a moving force behind the constitutional
violation.” Brewington v. Keener, 902 F.3d 796, 801 (8th
Cir. 2018) (quoting Corwin v. City of Independence, 829
F.3d 695, 700 (8th Cir. 2016)).
We conclude that Meier has adduced evidence
from which a reasonable juror could find that each of
these three elements is met. Rath testified during a
deposition that in his experience as a criminal defense
attorney, SLMPD “regularly” detains vehicles suspected of criminal involvement in hopes of identifying
the owner or driver of the vehicle. Cynthia Jennings,
the REJIS training officer, teaches officers throughout
St. Louis County that “[w]anted means . . . once you
stop that vehicle and confirm the status of it, that vehicle would then be held if it meets the criteria from
the originating agency.” SLMPD Captain Steven
Mueller, whom SLMPD designated as its representative under Federal Rule of Civil Procedure 30(b)(6),
also understands that reporting a vehicle as wanted on
REJIS is a request that the investigating officer
“[d]etain [the vehicle] for us.” These statements, if believed, would demonstrate SLMPD employees’ continuing, widespread, persistent practice of using wanted
reports to seize vehicles without a warrant as an

A-7
investigative tool. St. Louis does not contest that Jenning and Mueller are policymaking officials, so their
statements also demonstrate that SLMPD’s policymaking officials are aware of this practice. See Dahl v.
Rice County, 621 F.3d 740, 743 (8th Cir. 2010) (“A policy
can be inferred from a single decision taken by the
highest officials responsible for setting policy in that
area of the government’s business.”).
A jury could also find that this policy resulted in
Doc’s Towing’s retention of Meier’s car. SLMPD reported Meier’s truck wanted, and after it received
MHPD’s notice that the truck had been located, it instructed MHPD to “[a]dvise driver/owner of vehicle to
respond to the First District Detective Bureau regarding release of vehicle.” When Ben Meier contacted
SLMPD, Detective Russo believed that there was a
“hold placed [on the truck] as it is wanted for leaving
the scene,” and he told Ben to “respond to St. Louis Police Department to answer questions relative to the accident” to get the truck back. The release order
provides further confirmation that the wanted report
was intended to effect the seizure of Meier’s truck, as
it indicates that it rescinds a “hold order” entered the
day that the truck was towed.
St. Louis argues that it uses “hold orders” to “authorize[ ] the towing of a vehicle” and that “ ‘wanted’
and ‘hold’ are not synonymous.” Because SLMPD officers never issued a “hold order” for Meier’s truck, St.
Louis reasons, its policy cannot be responsible for
the truck’s seizure—MHPD and Doc’s Towing simply
misunderstood SLMPD’s REJIS report. The evidence

A-8
viewed in Meier’s favor does not support this argument. “Hold orders” are not mentioned in the REJIS
manual, and Jennings understands a wanted report to
“be synonymous with the word hold.” As discussed
above, several SLMPD employees, including policymaking officials and the individuals personally involved in Meier’s case, believe a wanted report
operates as a request “to take [the vehicle] into custody.” And the release order issued by an SLMPD employee could be read to recognize that Meier’s truck
was held pursuant to a “hold order.” A reasonable jury
could find that Meier’s truck was towed and held pursuant to SLMPD’s unwritten but widespread and persistent policy of reporting vehicles as wanted for the
purpose of detaining them without a warrant.
St. Louis also argues that regardless of its policy,
it cannot be held liable because Meier has not brought
claims against any individual SLMPD employee. It relies on Whitney v. City of St. Louis, 887 F.3d 857 (8th
Cir. 2018), in which we stated that “absent a constitutional violation by a city employee, there can be no
§ 1983 or Monell liability for the City.” Id. at 861. This
argument misreads Whitney. Municipal liability requires a constitutional violation by a municipal employee, but it does not require the plaintiff to bring suit
against the individual employee. See Webb v. City of
Maplewood, 889 F.3d 483, 487-88 (8th Cir.) (“[O]ur case
law has been clear . . . that although there must be an
unconstitutional act by a municipal employee before a
municipality can be held liable, there need not be a
finding that a municipal employee is liable in his or her

A-9
individual capacity.” (cleaned up)), cert. denied, 139
S. Ct. 389, 202 L.Ed.2d 289 (2018). Assuming that the
seizure of Meier’s truck violated her constitutional
rights—an assumption that St. Louis does not dispute
at this juncture—Meier has adduced evidence sufficient to establish St. Louis’s liability for that violation.
B
To succeed on her § 1983 claim against Doc’s Towing, Meier must demonstrate that the company was
acting under color of law. See Insley’s, 499 F.3d at
880. An act violating the Constitution is considered to
have occurred under color of law if it is “fairly attributable” to a governmental entity. Id. (quoting Lugar v.
Edmondson Oil Co., 457 U.S. 922, 937 (1982)). “The Supreme Court has recognized a number of circumstances in which a private party may be characterized
as a [governmental] actor,” including “where a private
actor is a ‘willful participant in joint activity with the
[governmental entity] or its agents.’ ” Wickersham v.
City of Columbia, 481 F.3d 591, 597 (8th Cir. 2007)
(quoting Adickes v. S.H. Kress & Co., 398 U.S. 144, 151
(1970)). “The one unyielding requirement is that there
be a ‘close nexus’ not merely between the state and the
private party, but between the state and the alleged
deprivation itself.” Id. (quoting Brentwood Acad. v.
Tenn. Secondary Sch. Athletic Ass’n, 531 U.S. 288, 295
(2001)).
Doc’s Towing argues that Meier has not adduced
any evidence of a “close nexus” between St. Louis and

A-10
the detention of her truck. But the evidence would allow a reasonable jury to find just that. As explained
above, a jury could find that SLMPD intended Doc’s
Towing to detain Meier’s truck until it obtained the information it was looking for and authorized the truck’s
release. A jury could also find that Doc’s Towing understood SLMPD’s intent and acted accordingly. When
Meier attempted to retrieve the truck, a Doc’s Towing
employee refused to release it, explaining to her “that
a hold from the St. Louis Police Department was put
on the car.” The president of Doc’s Towing confirmed in
a deposition that “Doc’s Towing was told to hold [the
truck] based on the City of St. Louis’s ‘wanted’ and to
hold it until the City of St. Louis released it.” This was
in accordance with Doc’s Towing’s policy of not releasing a vehicle with a “hold” or “wanted” on it without
police authorization. Once Doc’s Towing received the
release order from SLMPD, it released the truck to
Meier in accordance with its policy. When viewed in
this light, the evidence indicates that SLMPD and
Doc’s Towing shared a mutual understanding concerning the truck and that Doc’s Towing willfully participated in SLMPD’s policy. See Magee v. Trs. of Hamline
Univ., 747 F.3d 532, 536 (8th Cir. 2014) (holding that “a
mutual understanding, or a meeting of the minds, between the private party and the state actor” is sufficient to establish that the private party was acting
under color of law (quoting Pendleton v. St. Louis Cty.,
178 F.3d 1007, 1011 (8th Cir. 1999))). We conclude that
Meier has adduced evidence from which a reasonable
juror could find that Doc’s Towing was acting under

A-11
color of law when it refused to allow her access to her
truck.
III
For the foregoing reasons, we reverse the district
court’s decision and remand for further proceedings.

A-12
APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
MARY MEIER,

)
)
Plaintiff,
)
Case No.
vs.
)
4:16 CV 1549 RWS
)
ST. LOUIS, MISSOURI, et al.,
)
Defendants.
)
MEMORANDUM AND ORDER OF REMAND
(Filed Feb. 21, 2018)
Benjamin Meier crashed his mother Mary’s truck
into Natasha Naka-Akpodee’s vehicle and left the
scene of the accident. Akpodee took a photo of the license plate as Meier drove away and provided it to the
St. Louis City police officer who responded to the scene
of the accident. The officer subsequently entered the license plate number into the law enforcement data base
REJIS as “wanted” in connection with a hit-and-run.
A few months later, Maryland Heights police officer Cliff House observed Meier and a female companion sitting in the truck acting suspiciously in a hotel
parking lot in St. Louis County. Maryland Heights is
in St. Louis County, not the City of St. Louis, and the
Maryland Heights police department is not part of the
St. Louis City police force. When House ran the plate
with his dispatcher, the REJIS system alerted that the

A-13
vehicle was “wanted” by St. Louis City in connection
with a hit-and-run accident. There is no dispute in this
case that a “wanted” status indicates that there is no
warrant and is instead a request for “lead information
only.” That means that upon discovering the truck, the
Maryland Heights police department should have notified the REJIS system that the truck had been “located,” which in turn would have permitted the St.
Louis City police department to respond as to what it
intended to do about the vehicle.1 There is also no dispute that a “wanted” is different than a “hold order”
and does not authorize an officer to seize a vehicle.
House decided to question Meier and his companion. He asked Meier about his involvement in the hitand-run accident, which he falsely denied, and the
identity of Meier’s companion, who provided a false
name. Meier also falsely denied knowing his companion’s real name, despite claiming to be her fiancé.
House called for back-up, and the two officers eventually arrested Meier (for interfering with an investigation and possessing a controlled substance) and his
fiancée, who turned out to have an outstanding warrant. House decided to tow the truck because the occupants were being arrested, they were not guests at the
hotel, and because of the “wanted.” St. Louis City police
never told House to seize or tow the truck, and House
would have towed the truck even without the “wanted”
because it was standard procedure in connection with
the arrest. House admitted in his deposition that he
1

The Maryland Heights police department never made such
a designation in the REJIS system.

A-14
knew the difference between a “wanted” and a “hold order” and that a “wanted” order did not authorize the
seizure of a vehicle. He also clarified that he towed the
vehicle because of the arrest.
House contacted Maryland Heights dispatch and
told them to contact Doc’s Towing to tow the truck.
When Doc’s arrived, House informed Doc’s Towing of
the “wanted.” St. Louis City police never contacted
Doc’s about the truck, never told Doc’s it should tow
the truck, and never told Doc’s that it could not release
the truck to plaintiff because of the “wanted.” Doc’s
does not tow for the City of St. Louis.
Doc’s towed the truck at the direction of House and
sent plaintiff Mary Meier a certified letter notifying
her of its possession of her truck. Plaintiff did not claim
the letter and it was returned. The City of Maryland
Heights also sent plaintiff a letter telling her that it
(not the City of St. Louis) towed her vehicle to Doc’s.
Plaintiff alleges that she went to Doc’s to pick up the
truck but was told by a Doc’s employee that she could
not because of a “hold order” issued by the St. Louis
City police department. Doc’s admits that plaintiff was
unable to obtain the truck when she came to retrieve
it, but denies that plaintiff was told about a “hold” or
that plaintiff unsuccessfully attempted multiple times
to obtain her truck. Doc’s eventually applied for a salvage title on the truck, claiming it did not know about
plaintiff ’s efforts to retrieve her truck.
Plaintiff eventually sought the assistance of an attorney, who went to the St. Louis City police department and bugged one of the detectives until he signed

A-15
a release form to help plaintiff get her truck back. This
release form was a preprinted form of the St. Louis
City police department and was addressed to City of
St. Louis Towing, not Doc’s, because Doc’s does not tow
for the City of St. Louis. The St. Louis City police detective wrote on the form that the vehicle was “no
longer wanted.” The attorney (not the detective) then
faxed this form to Doc’s, and Doc’s released the truck
to plaintiff upon payment of fees. By that time, however, the salvage title had been issued to Doc’s. Doc’s
gave the salvage title to plaintiff and tried to obtain
clean title for plaintiff. However, apparently upon “advice of counsel” plaintiff has refused to complete the
necessary paperwork to obtain clean title. Instead, she
continues to claim damages because she does not have
clean title.
Plaintiff ’s amended complaint alleges four claims.
Federal removal jurisdiction arises from the first two
claims, which are brought under 42 U.S.C. § 1983.
Counts I and II are brought against both the City of
St. Louis and Doc’s and allege that the defendants deprived her of her truck without due process of law and
that the deprivation amounted to an unreasonable
seizure in violation of the Fourth Amendment. In particular, plaintiff alleges that placing a “wanted” on her
truck amounted to a seizure of her property without a
warrant, probable cause, or a prompt post-deprivation
hearing. To hold a private actor like Doc’s liable under
§ 1983, plaintiff alleges that Doc’s acted “under color of
law” because it “agreed with, conspired with, confederated with, and joined with defendants City of St. Louis
and its police department to deprive plaintiff of her

A-16
vehicle.” Counts III and IV are state law claims for conversion and unlawful merchandising practices brought
solely against Doc’s.
All parties have filed motions for summary judgment. Plaintiff ’s federal claims turn on two simple,
undisputed facts. The Maryland Heights police department, not the City of St. Louis, seized plaintiff ’s truck.
And whatever actions Doc’s took, it did not act in concert with the City of St. Louis. Therefore, plaintiff ’s
federal claims as pleaded against the defendants in
this case fail as a matter of law.
The standards for summary judgment are well
settled. In ruling on summary judgment, the Court
views the facts and inferences therefrom in the light
most favorable to the nonmoving party. Matsushita
Elec. Indus. Co., Ltd. v. Zenith Radio Corp., 475 U.S.
574, 587 (1986). The moving party has the burden to
establish both the absence of a genuine issue of material fact and that it is entitled to judgment as a matter
of law. Fed. R. Civ. P. 56(a); Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 247 (1986); Celotex Corp. v. Catrett,
477 U.S. 317, 322 (1986). Once the moving party has
met this burden, the nonmoving party may not rest on
the allegations in its pleadings but must set forth by
affidavit or other evidence specific facts showing that
a genuine issue of material fact exists. Fed. R. Civ. P.
56(c). At the summary judgment stage, the Court does
not weigh the evidence and decide the truth of the matter but only determines if there is a genuine issue for
trial. Anderson, 477 U.S. at 249.

A-17
Defendant City of St. Louis cannot be held liable
under § 1983 on a respondeat superior theory. Monell
v. Department of Social Services of New York, 436 U.S.
658, 694-95 (1978). The threshold question on municipal liability under § 1983 is “whether there is a direct
causal link between a municipal policy or custom and
the alleged constitutional deprivation.” City of Canton
v. Harris, 489 U.S. 378, 385 (1989). “This requires a
plaintiff to show that the municipal policy was “the moving force behind the constitutional violation.” Mettler v.
Whitledge, 165 F.3d 1197, 1204 (8th Cir. 1999) (alteration, quotation marks and citation omitted).
Here, plaintiff has come forward with no evidence
from which a reasonable fact finder could find that the
City of St. Louis deprived plaintiff of her property.
Plaintiff ’s truck was seized in conjunction with the arrest of her son by a Maryland Heights police officer, not
a St. Louis City police officer. The truck was towed at
the direction of the Maryland Heights police officer by
Doc’s, a towing company that does not tow vehicles for
the City of St. Louis. The City of St. Louis never requested or instructed House to seize or tow the truck,
and it never instructed Doc’s to retain possession of the
truck or refuse to release the truck to plaintiff. All the
City of St. Louis did was issue a “wanted” in the REJIS
system for plaintiff ’s truck after her son and the truck
were involved in a hit and run accident.
Although plaintiff attempts to muddy the summary judgment waters by using the terms “wanted”
and “hold order” interchangeably, the undisputed facts
demonstrate that they are two different concepts.

A-18
There is no dispute in this case that the City of St.
Louis never issued a “hold order” for plaintiff ’s truck.
Instead, it put out a “wanted” in REJIS. The “wanted”
just requested information if the truck was located by
other law enforcement agencies. A “wanted” does not
authorize the seizure of a vehicle and instead indicates
that there is no warrant for arrest. The REJIS system
never indicated that a warrant had been issued for the
truck. Although House testified in his deposition that
he towed the vehicle in part because of the “wanted,”
he also testified that he knew what “wanted” meant
and that he would have towed the truck even in the
absence of the “wanted” because he arrested Benjamin
Meier and his fiancé. He also later clarified that the
truck was towed in conjunction with arrest. There is
simply no evidence in this case that would permit a
reasonable fact finder to conclude that the City of St.
Louis was the moving force behind the deprivation of
plaintiff ’s property.
Nor did the City of St. Louis participate in the refusal to return plaintiff ’s truck. The City of St. Louis
never communicated with Doc’s about plaintiff ’s truck
and never told Doc’s that it could not release the truck
because of the “wanted.” Any information Doc’s obtained about plaintiff ’s truck came from the Maryland
Heights police department, not the City of St. Louis.
And plaintiff cannot demonstrate that Doc’s refused to
release the truck pursuant to a “custom or policy” of
the City of St. Louis because Doc’s did not tow for the
City of St. Louis. Whatever understanding (or rather,
misunderstanding) Doc’s had about what a “wanted”

A-19
meant did not come from the City of St. Louis, and the
actions of Doc’s and the Maryland Heights police department cannot be imputed to the City of the St. Louis
for purposes of demonstrating liability in this case.
Nor does the release form issued by the City of St.
Louis preclude summary judgment in this case. The
pre-printed form was signed by a St. Louis City police
officer in an effort to assist plaintiff because her lawyer
insisted that she could not get her truck back without
it. Importantly, the form is not even addressed to Doc’s
because Doc’s does not tow for the City of St. Louis, and
it was never sent to Doc’s by the City of St. Louis. Instead, the form was faxed to Doc’s by plaintiff ’s counsel. There is no evidence from which a reasonable fact
finder could conclude that there was a custom or policy
of the City of St. Louis to issue release forms for
“wanted” vehicles, because the undisputed evidence
demonstrates that “wanted” vehicles are not seized at
the direction of the City of St. Louis simply because of
a “wanted” status in REJIS. This form does not establish liability on the part of the City of St. Louis for the
seizure of plaintiff ’s property as a matter of law.
Because plaintiff cannot demonstrate the City of
St. Louis’ liability under § 1983 as a matter of law, the
Court need not, and therefore does not, address the
issue of whether plaintiff established underlying constitutional violations in connection with the deprivation of her property. Defendant City of St. Louis is
entitled to summary judgment on the claims asserted
against it.

A-20
To prevail on a claim under 42 U.S.C. § 1983, a
plaintiff must establish that the alleged deprivation
was committed by a person acting under color of
state law. See Dossett v. First State Bank, 399 F.3d
940, 947 (8th Cir. 2005). To be liable under § 1983, a
private actor like Doc’s must be “a willful participant
in joint activity with the State in denying a plaintiff ’s
constitutional rights.” Magee v. Trustees of Hamline
University, Minnesota, 747 F.3d 532, 536 (8th Cir. 2014)
(internal quotation marks and citation omitted). A
plaintiff must demonstrate “a mutual understanding,
or a meeting of the minds, between the private party
and the state actor.” Pendleton v. St. Louis County, 178
F.3d 1007, 1011 (8th Cir. 1999) (internal quotation
marks and citations omitted).
Plaintiff ’s § 1983 claims against Doc’s fail because
there is no evidence from which a reasonable fact
finder could conclude that Doc’s acted in concert with
the City of St. Louis to deprive plaintiff of her property.
As the undisputed facts set forth above demonstrate,
Doc’s had no contact with the City of St. Louis. Doc’s
towed plaintiff ’s truck at the direction of the Maryland
Heights police department and refused to release
plaintiff ’s vehicle based upon its interpretation of information provided by the Maryland Heights police department, not the City of St. Louis. Doc’s does not do
business with the City of St. Louis and did not engage
in any concerted action or meeting of the minds with
the City of St. Louis about plaintiff ’s truck. Plaintiff
has only sued and alleged joint activity between Doc’s
and the City of St. Louis, so those are the only claims

A-21
and defendants before this Court. It is clear that plaintiff cannot prevail on the § 1983 claims made against
Doc’s in the amended complaint as a matter of law, so
summary judgment in favor of Doc’s must be granted
on the federal claims.
Having dismissed all claims over which this Court
had original jurisdiction, the Court has discretion to
remand the remaining state law claims against Doc’s
back to state court. See 28 U.S.C. § 1367. The decision
whether to exercise supplemental jurisdiction over
state law claims when federal claims have been dismissed depends upon “factors such as convenience,
fairness, and comity.” Pioneer Hi-Bred International v.
Holden Foundation Seeds, Inc., 35 F.3d 1226, 1242 (8th
Cir. 1994). Although discovery has concluded in this
case, upon consideration of these factors the Court
concludes that remand is appropriate. Doc’s raises defenses to plaintiff ’s remaining claims for conversion
and unlawful merchandising practices which touch on
issues unique to state law and are more appropriately
passed upon by the state court. Moreover, this case
could and should have been remanded to state court
well before now had defendants filed timely and appropriate motions to dismiss raising this straightforward
threshold legal issue. Plaintiff elected to pursue her
claims in state court and, given the nature of the remaining controversy as well as the interests of comity
and fairness, the Court concludes that plaintiff ’s original choice of forum is the appropriate one for resolution of her state law claims against Doc’s. Accordingly,
I will deny all pending motions for summary judgment

A-22
relating to Counts III and IV of the amended complaint
without prejudice to being refiled in state court.
Accordingly,
IT IS HEREBY ORDERED that plaintiff ’s motion for partial summary judgment [37] is denied in
part and denied without prejudice in part as follows:
plaintiff ’s motion for summary judgment on Counts I
and II is denied, and plaintiff ’s motion for summary
judgment on Count III is denied without prejudice to
being refiled in state court.
IT IS FURTHER ORDERED that defendant
Doc’s Towing’s motion for summary judgment [69] is
granted in part and denied in part without prejudice
as follows: defendant’s motion for summary judgment
is granted as to Counts I and II of plaintiff ’s amended
complaint, and defendant Doc’s Towing shall have
summary judgment against plaintiff on Counts I and
II of the amended complaint, and Counts I and II of the
amended complaint are dismissed as to Doc’s Towing.
Defendant Doc’s Towing’s motion for summary judgment as to Counts III and IV of the amended complaint
is denied without prejudice to being refiled in state
court.
IT IS FURTHER ORDERED that defendant
City of St. Louis’ motion for summary judgment [71] is
granted, and defendant City of St. Louis shall have
summary judgment against plaintiff on all claims
brought against it in the amended complaint.

A-23
IT IS FURTHER ORDERED that Counts III
and IV of the amended complaint are remanded to
state court.
IT IS FURTHER ORDERED that any other remaining pending motions are denied as moot.
A separate Judgment accompanies this Memorandum and Order of Remand.
/s/ Rodney W. Sippel
RODNEY W. SIPPEL
UNITED STATES
DISTRICT JUDGE
Dated this 21st day of February, 2018.

A-24
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
MARY MEIER,

)
)
Plaintiff,
)
Case No.
vs.
)
4:16 CV 1549 RWS
)
ST. LOUIS, MISSOURI, et al.,
)
Defendants.
)
JUDGMENT
(Filed Feb. 21, 2018)
For the reasons set out in the Memorandum and
Order of Remand entered this same date,
IT IS HEREBY ORDERED, ADJUDGED AND
DECREED that defendants shall have summary judgment against plaintiff on Counts I and II of the amended
complaint, Counts I and II of the amended complaint
are dismissed with prejudice, and plaintiff shall take
nothing on Counts I and II of her amended complaint.
IT IS FURTHER ORDERED that Counts III
and IV of the amended complaint are remanded to the
Circuit Court for the City of St. Louis, Missouri.
/s/ Rodney W. Sippel
RODNEY W. SIPPEL
UNITED STATES
DISTRICT JUDGE
Dated this 21st day of February, 2018.

A-25
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-1597
Mary R. Meier
Appellant
v.
St. Louis, Missouri, City of
Appellee
St. Louis Board of Police Commissioners, et al.
Doc’s Towing, Inc.
Appellee
St. Louis P.O. House, DSN 219
Appeal from U.S. District Court for the
Eastern District of Missouri – St. Louis
(4:16-cv-01549-RWS)

ORDER
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
September 25, 2019

A-26
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

A-27
APPENDIX D
IN THE CIRCUIT COURT OF THE CITY OF ST. LOUIS
STATE OF MISSOURI
)
)
Plaintiff,
)
)
vs.
)
CITY OF ST. LOUIS,
)
MISSOURI,
)
)
-and)
DOC’S TOWING, INC.,
)
a corporation,
)
Defendant’s [sic] )
)

MARY R. MEIER,

No. 4:16-CV1549

Jury Trial Requested

PLAINTIFF’S FIRST AMENDED
COMPLAINT FOR DAMAGES
(leave to file granted in scheduling order #29)
Plaintiff Mary R. Meier for her first amended
complaint for damages against defendants City of
St. Louis, and Doc’s Towing, Inc. states:
A.

GENERAL ALLEGATIONS

1. At all times mentioned herein plaintiff Mary
R. Meier was a citizen and resident of the United
States of America and the State of Missouri.

A-28
2. At all times mentioned herein, defendant St.
Louis City is a political subdivision of the State of Missouri and authorized to sue or be sued in its own name.
3. Defendant City of St. Louis is comprised of
many departments and units, one of which is the St.
Louis Metropolitan Police Department, which was responsible for operating a police department in the City
of St. Louis, Missouri.
4. Defendant Doc’s Towing, Inc. is a Missouri corporation, in good standing, which operates a towing
company and tow and storage yard at 2810 Walton
Road and 9408 Breckenridge Road.
5. At all times mentioned herein, plaintiff Mary
Meier was the registered and title owner of a Red, 2013
Ford Pickup, VIN #1FTNF1CT1DKD36847.
6. On December 9, 2015 St. Louis Police Officer
Kelly responded to a report of a hit and run accident in
the City of St. Louis.
6 [sic]. In responding to the accident Officer
Kelly interviewed a driver named Natasha NakaAkpodee who reported that her vehicle was struck by
an unknown male driver (not plaintiff Mary Meier)
who left the scene of the accident.
7. Driver Naka-Akpodee informed Officer Kelly
that she was able to get a photograph of the license
plate of the vehicle which struck her vehicle.

A-29
8. From the photograph of the license plate it
was believed that the hit and run vehicle was the red
2013 Ford Truck owned by plaintiff Mary Meier.
9. St. Louis Police Officer Kelly prepared a police
report of the December 9, 2015 reported accident, incident report #15-062274.
10. On or about December 9, 2015 St. Louis Metropolitan Police Employee Lively (TRU Clerk Lively,
DSN 8609) entered the 2013 Ford Truck into the
REJIS computed [sic] system as a “wanted” vehicle per
reference #25735471.
COUNT I
ACTION UNDER 42 U.S.C. § 1983 FOR DEPRIVATION OF PROPERTY (VEHICLE) WITHOUT DUE
PROCESS OF LAW
Plaintiff for her first Count against defendants
City of St. Louis and Doc’s Towing, Inc. states:
11. She adopts each and every allegation of paragraphs 1-10 above.
12. On March 17, 2016 plaintiff’s red Ford Pickup
displayed Missouri license plate Number 4KU541 and
said license plates were in the name of plaintiff Mary
Meier.
13. On March 17, 2016 Maryland Heights, Missouri peace/police officer Cliff House observed the red
“2013 Ford Truck” parked on the parking lot of the
Days Inn Hotel located in St. Louis County and outside

A-30
the limits of the City of St. Louis at 1970 Craig Road
in Maryland Heights, Missouri.
14. On March 17, 2016 Maryland Heights, Missouri Police officer Cliff House decided to conduct a
computer records check on the license plate of the red
(“2013 Ford Truck”).
15. Officer House was advised and subsequently
reported as follows:
“A computer check of the license plate revealed it was wanted in the connection of a
Leaving the Scene of an Accident, reported on
12-9-2015 by St. Louis City (District 1). The
wanted entry is V25735471 and the report
number is 15-062274.”
16. As the result of the information he learned
about the 2013 Ford Truck defendant Doc’s Towing was
summoned to and arrived on the scene of the parking
lot to tow Meier’s vehicle from the parking lot.
17. Officer House based his decision to and reported that the reason he had the 2013 vehicle towed
was in part because of “the wanted entry of the vehicle.”
18. On March 17, 2016 plaintiff ’s 2013 pickup
truck was towed to Doc’s Towing by Doc’s Towing
where it was stored at 9408 Breckenridge Road, St.
Louis County, Missouri.
19. On March 17, 2016 at 00:57:22 the Defendant
City of St. Louis received the following notice from the
Maryland Heights Police Department in an entry in

A-31
the computer system/network REJIS: “We have located
the vehicle and we are towing it to Docs Towing . . . ”
20. In response to the REJIS notice and on
March 17, 2016 at 00:59:30 the Defendant City of St.
Louis Police Department responded to the Maryland
Heights Police REJIS message as follows: “We have received your request and forwarded it to our south patrol division for a response. For further information
you can contact south patrol at 314-444-0100. Thank
you.”
21. Defendant Doc’s Towing maintained possession of the 2013 Ford Truck from March 17, 2016 to
April 29, 2016 pursuant to the “wanted” placed in the
REJIS computer system.
22. At no time from March 17, 2016 to April 29,
2016 did an employee or agent of the City of St. Louis
or its police department visit Doc’s Towing and inspect
or search the 2013 Ford Truck.
23. At no time from March 17, 2016 to April 28,
2016 did an employee or agent of the City lift the
wanted or the hold order on plaintiff ’s vehicle or advise
Doc’s Towing that they could release the vehicle.
24. At or near March 18 through March 22,
plaintiff made demand and attempted to get her vehicle out of tow storage at Defendant Doc’s Towing but
was informed that the City of St. Louis Police Department placed a “Hold Order” on the vehicle which, according to defendant Doc’s Towing, prevented Doc’s
Towing from releasing the vehicle.

A-32
25. It was the custom, policy, practice and procedure of the City of St. Louis Police Officers and the
defendants City of St. Louis, Board of Police Commissioners, and its police officers to issue wanteds or “Hold
Orders” on vehicles.
26. The issuance of a wanted or hold order, as a
practical matter, served as a seizure or a seizure warrant for the seizure of the vehicle. However, the wanted
or the hold order was not issued by a neutral and detached judicial officer nor was it pursuant to any judicially authorized procedure and therefore was an
unlawful seizure when executed.
27. Neither the City of St. Louis nor any other
peace officer provided plaintiff with any notice of the
seizure or wanted or hold order on plaintiff ’s vehicle.
28. The wanted or “hold order” did not provide
any direction or guidance regarding the procedure required to lift or remove the hold order, nor did it provide plaintiff with a prompt procedure for a hearing.
29. The seizure of the vehicle by defendants was
without pre-deprivation hearing.
30. No prompt post-deprivation hearing, in a meaningful time and meaningful manner, was provided by
defendants to plaintiff regarding return of her vehicle.
31. The seizure of the vehicle was an authorized
action of the City of St. Louis and the St. Louis City
police officers.

A-33
32. The seizure and retention was not random or
unauthorized but pursuant to police custom, policy,
practice and procedure of defendant City of St. Louis
and their special orders.
33. Defendants have developed no meaningful
post-deprivation hearing or judicial remedy for an
owner of a seized vehicle in the situation where a vehicle is seized pursuant to a wanted or hold order.
34. Plaintiff was forced to hire an attorney to assist in the return of her vehicle and plaintiff and plaintiff ’s attorney got the run-around in attempting to
obtain return and possession of the vehicle.
35. Defendant Doc’s Towing, Inc. agreed with,
conspired with, confederated with, and joined with defendants City of St. Louis and its police department to
deprive plaintiff of her vehicle and thus each defendant acted under color of law by enforcing the wanted or
hold order.
36. Plaintiff has been deprived of her vehicle
without due process of law and is entitled to his [sic]
actual damages pursuant to the provisions of 42 U.S.C.
§ 1983.
37. In addition to his [sic] actual damages, plaintiff is entitled to damages for the constitutional violations as heretofore described and reasonable attorney
fees and costs.
WHEREFORE, plaintiff prays judgment on Count I
against defendants City of St. Louis and Doc’s Towing,
Inc., jointly and severally, under Count I for damages

A-34
in an amount which will fairly and justly compensate
her, for her attorney fees and costs, and for whatever
other and further relief as to the Court shall seem [sic]
meet and proper in the premises.
COUNT II
ACTION UNDER 42 U.S.C. § 1983 BY PLAINTIFF
FOR UNREASONABLE SEIZURE
Plaintiff for her Second Count against defendants
City of St. Louis and Doc’s Towing, Inc. states:
38. She adopts each and every allegation of paragraphs 1 through 37 above.
39. Defendants seized and held the plaintiff ’s vehicle without the permission of plaintiff.
40. Defendants did not have a judicial warrant
to search for or seize the described property.
41. The actions of the St. Louis Police Department of seizing a vehicle while it was located in St.
Louis County was unauthorized under the law and exceeded the territorial limits of the power and authority
of the St. Louis Police Department.
43 [sic]. Defendants lacked probable cause to
prolong the seizure of the vehicle nor did the circumstances surrounding seizure come within any exception to the warrant requirement.

A-35
44. Plaintiff has been damaged by the unlawful
seizure of her property within the meaning of the
Fourth Amendment to the United States Constitution.
45. In addition to his [sic] actual damages, plaintiff is entitled to damages for the constitutional violations as heretofore described and reasonable attorney
fees and costs.
WHEREFORE, plaintiff prays judgment on Count II
against defendants City of St. Louis and Doc’s Towing,
Inc., jointly and severally, under Count II for damages
in an amount which will fairly and justly compensate
her, for her attorney fees and costs, and for whatever
other and further relief as to the Court shall seem [sic]
meet and proper in the premises.
COUNT III
FOR CONVERSION AGAINST DEFENDANT DOC’S
TOWING
Plaintiff for her Third Count against Doc’s Towing,
Inc. and states:
46. She adopts each and every allegation of paragraphs 1 through 45 above.
47. In March of 2016 while the plaintiff ’s 2013
Ford Truck was in Doc’s possession and plaintiff ’s efforts to get the Truck were refused because of the
wanted or hold order, Doc’s Towing applied through the
Missouri Department of Revenue for a “Salvage” Title
with an effective “purchase date” of March 17, 2016.

A-36
48. On the application for Title Doc’s towing represented and wrote in, under oath, that the mileage of
plaintiff ’s vehicle was 34,454.
49. On March 29, 2016 plaintiff appeared at the
business office of Doc’s Towing and made demand for
return of the Ford 150 Truck and, in the process, displayed the title and proof of ownership and tendered
the towing and all claimed fees including storage fees.
50. Plaintiff ’s March 29 tender and demand for
possession of the vehicle was denied by Doc’s Towing.
51. On March 29 Doc’s Towing concealed from
plaintiff that they had made application to the Missouri Department of Revenue for the salvage title.
52. In March and April plaintiff was unaware of
and did not have notice that Doc’s Towing made application to the Missouri Department of Revenue for the
salvage title.
53. Doc’s towing charges were stated to be in the
amount of $105.00.
54. Plaintiff ’s attorney Jeffrey Rath went to the
St. Louis Police Department on April 28, 2016 and, after waiting several hours, obtained a “release order”
which was faxed to Doc’s Towing on April 29, 2016.
55. Plaintiff appeared at Doc’s Towing on April
29, 2016 to obtain possession of the vehicle and was
forced to pay the towing fee of $105.00 and a storage
fee of $1,320.00, a total of $1,425.00.

A-37
56. The plaintiff was then required to have a different towing company tow the Ford 150 from Doc’s
Towing on April 29, in that the vehicle was not operational in that it had a flat right front tire, a dead battery and there was body damage to the right side of the
vehicle.
57. When plaintiff obtained possession of the vehicle on April 29, 2016 from Doc’s Towing, it had over
40,300 miles and therefore, based upon the mileage
recorded by Doc’s Towing of 34,454, which Doc’s Towing is estopped to deny, the vehicle was driven approximately 6,000 miles by Doc’s towing or its agent or
employee.
58. The State of Missouri, Department of Revenue issued a Salvage Title to plaintiff ’s vehicle to Doc’s
Towing.
59. The Salvage Title converted the title ownership from plaintiff to Doc’s Towing.
60. As a result of defendant Doc’s Towing action,
plaintiff has been damaged.
61. Plaintiff has sustained general damages including loss of use and title to her vehicle including the
following specific damages:
a.
fees;

She was required to pay excess Storage

b. there was physical damage to the vehicle
and battery;

A-38
c. Damage, depreciation and reduction in value
due to the addition of mileage and wear and tear;
d. Damage due to the status of title as a
“Salvage” vehicle, which generally has a significant effect on the fair market value of the vehicle;
e.

Lost time from work and employment;

f. Attorney fees in having the unlawful “hold
order” removed; and
g. Plaintiff has lost the title and ownership
of the vehicle.
WHEREFORE, plaintiff prays judgment on Count III
against defendant Doc’s Towing, Inc. under Count III
for damages in an amount which will fairly and justly
compensate her, for her attorney fees and costs, and for
whatever other and further relief as to the Court shall
seem [sic] meet and proper in the premises.
COUNT IV
FOR UNLAWFUL MERCHANDISING PRACTICES
AGAINST DEFENDANT DOC’S TOWING
Plaintiff for her Fourth Count against Doc’s Towing, Inc. and states:
72 [sic]. She adopts each and every allegation of
paragraphs 1 through 61 above.
63. Defendant Doc’s Towing is a towing and storage business in that Doc’s Towing sells its vehicle towing and storage services to the public in trade or
commerce.

A-39
64. Plaintiff purchased, owned and maintained
the 2013 Ford ruck primarily for personal, family or
household purposes.
65. In connection with the sale and storage of the
towing and storage of plaintiff ’s 2013 Ford Truck defendant Doc’s Towing used or employed the following
unlawful merchandising practices:
a. in March 2016 when plaintiff called to ask
about recovering the 2013 Ford Truck Doc’s Towing
concealed, suppressed and omitted to tell plaintiff that
they had applied for a salvage title on the vehicle;
b. On March 29, 2016 plaintiff appeared at the
business office of Doc’s Towing and made demand for
return of the Ford 150 Truck and, in the process, displayed the title and proof of ownership and tendered
the towing and all claimed fees at which time Doc’s
Towing concealed, suppressed and omitted to tell
plaintiff that they had applied for a salvage title on the
vehicle;
c. On March 29, 2016 plaintiff appeared at the
business office of Doc’s Towing and made demand for
return of the Ford 150 Truck and, in the process, displayed the title and proof of ownership and tendered
the towing and all claimed fees but Doc’s Towing refused to accept the tender and return the vehicle to
plaintiff;
d. Doc’s Towing continued to charge plaintiff
storage fees after plaintiff tendered all fees claimed by
Doc’s Title;

A-40
e. Doc’s Towing concealed, suppressed and
omitted to tell plaintiff that they had applied for a
salvage title when plaintiff paid Doc’s Towing and obtained possession of the vehicle on or about April 29,
2016;
f. Doc’s Towing concealed, suppressed and omitted to tell plaintiff that they perfected a salvage title
when plaintiff paid Doc’s Towing and obtained possession of the vehicle on or about April 29, 2016;
g. The application for title and its contents to the
Missouri Department of Revenue by Doc’s Towing regarding the nature and circumstances of the plaintiff ’s
vehicle was deceitful, a fraud, a misrepresentation, and
an unfair practice;
h. According to Doc’s Towing it misrepresented
the true mileage on plaintiff ’s vehicle to the Missouri
Department of Revenue; and
i. In an affidavit to the Missouri Department of
Revenue executed by Doc’s Towing fraudulently stated
averred to that “the owner of the abandoned property
. . . (had) not made arrangements for payment of towing and storage charges”.
66. As a result of defendant Doc’s Towing action,
plaintiff has been damaged.
67. Plaintiff has sustained and [sic] ascertainable amount of damages including loss of use and title
to her vehicle including the following specific damages:

A-41
a.
fees;

She was required to pay excess Storage

b. there was physical damage to the vehicle
and battery;
c. Damage, depreciation and reduction in
value due to the addition of mileage and wear and
tear;
d. Damage due to the status of title as a
“Salvage” vehicle, which generally has a significant effect on the fair market value of the vehicle;
e.

Lost time from work and employment;

f. Attorney fees in having the unlawful “hold
order” removed; and
g. Plaintiff has lost the title and ownership
of the vehicle.
68. Because of the action and conduct of defendant Doc’s Towing, plaintiff is entitled to punitive
and exemplary damages, and her attorney fees and
costs.
WHEREFORE, plaintiff prays judgment on Count
IV against defendant Doc’s Towing, Inc. under Count
IV for damages in an amount which will fairly and
justly compensate her for her actual damages, for punitive dagmes [sic], for her attorney fees and costs, and for

A-42
whatever other and further relief as to the Court shall
seem [sic] meet and proper in the premises.
By:
/s/ Gregory C. Fenlon
GREGORY G. FENLON
#35050 MO
231 S. Bemiston, Suite 910
Clayton, Missouri 63105
(314) 862-7999; f – 863-4340
ATTORNEY FOR PLAINTIFF
GGFMOATTY@aol.com

Certificate of Service
A copy of the foregoing was filed with the Court’s [sic]
via electronic filing on July 17, 2017 with a copy served
by operation of the court’s electronic filing system on
Christopher Carenza and Keith Cheung, attorneys for
defendants.
By

/s/ Gregory C. Fenlon

